In The
SUPREME COURT OF THE UNITED STATES
Case Number 21-
CERTIFICATE OF COMPLIANCE
LAWRENCE JOEY SMITH
Petitioner
v.
STATE OF FLORIDA
Respondent
CERTIFICATE OF SERVICE
I HEREBY CERTIFY, that on this 3rd day of June, 2021, I caused a 3 copies
of the Petition for Writ of Certiorari to be served on the following by first-class mail,
postage pre-paid, as well as electronically to Counsel for the State of Florida:
Tonja Vickers Rook
Office of the Attorney General
Concourse 4, Ste 200
3507 E Frontage Rd

Tampa, FL 33607-1786
(813) 287-7

 
   

ROBERT R. BERRY
Florida Bar Number 714216

Florida Board Certified Criminal Trial Lawyer
Florida Board Certified Criminal Appellate Lawyer
1521 Highland Drive

Tallahassee, Florida 32317

(850)597-8015 (office)

(850)597-7157 (fax)
Robert@attorneyrobertberry.com
Attyrobertberry@aol.com

Counsel for Petitioner

 
